CERTIFICATE OF COMPLIANCE
No.
In re PETER R. Culpepper, Petitioner

As required by Supreme Court Rule 33.1(h), I certify that the petition for
a writ of mandamus contains5^,6£3 words, excluding the parts of the
petition that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 21, 2021

Peter R. Culpepper, Petitioner

CERTIFICATE OF SERVICE
I certify that a true and correct copy of the foregoing petition for a writ of
mandamus to the Supreme Court of the United States has been served
upon the following^
Respondent-Chancellor, Honorable Ellen Hobbs Lyle, Chancellor,
Davidson County Chancery Court, Part III, Metro Courthouse, 1 Public
Square, Nashville, Tennessee 37201, via U.S. regular mail, this the 21st
day of June, 2021.
Counsels for the Appellee-Respondent, Martha L. Boyd, and Samuel
Lanier Felker, Baker, Donelson, Bearman, Caldwell & Berkowitz, P.C.,
Baker Donelson Center, Suite 800, 211 Commerce Street, Nashville,
Tennessee 37201, via email at mboyd@bakerdonelson.com and
samfelker@bakerdonelson.com, and via U.S. regular mail, this the 21st
day of June, 2021.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 21, 2021

Peter R. Culpepper, Petitioner

